No. 20AQO
IN THE

~upreme ~ourt of tbe mlniteb ~tate~
COREY JOHNSON,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I hereby certify that the Unopposed
Motion for Leave to File Brief of the Constitution Project as Amicus Curiae in Support
of Applicant and the Brief of the Constitution Project as Amicus Curiae in Support of
Applicant, in Johnson v. United States of America, No. 20AI 5~ were served via
overnight mail on all parties required:
Shay Dvoretzky

SKADDEN, ARPS, SLATE, MEAGHER

FLOMLLP
1440 New York Avenue, NW
Washington, DC 20005
(202) 371-7370
shay.dvoretzky@skadden.com

&

Counsel for Petitioner
Solicitor General of the United States

DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Counsel for Respondent

G. Zachary Terwilliger
OFFICE OF THE U.S. ATTORNEY
Eastern District of Virginia
2100 Jamieson Avenue
Alexandria, VA 22314-5194
(804) 819-5471
zachary. terwilliger@usdoj.gov

Counsel for Respondent

I declare under penalty of perjury that the foregoing is true and correct.

Date: January 14, 2021

